OFFICE OF THE ATTORNEY GENERAL
Capital Collateral Division

1515 N. Flagler Drive, Ste. 900
West Palm Beach, FL 33401
Phone (561) 837-5000
Fax (561) 268-5203
http://www.myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

February 15, 2021
The Honorable Scott S. Harris, Clerk
Office of the Clerk
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

Ronald Knight v. Secretary, Florida DOC
Case No.: 20-6891
Request for Extension of Time/Capital Case

Dear Sir:
On January 7, 2021 Petitioner, Ronald Knight, filed his petition for writ of certiorari; the brief in
opposition is currently due February 16, 2021. The undersigned counsel has two other petitions
of certiorari currently pending in this court for which she needs to complete briefs in opposition,
has just finished a response to a motion for reconsideration in a federal habeas petition, as well as
various state court appearances and work, all on a capital cases, during the time allotted for this
brief in opposition. Consequently, the State is requesting an extension of time to file its brief in
opposition pursuant to Supreme Court Rules 15 and 30, a 10 (10) day extension, up to and
including February 26, 2021.
No previous extensions have been requested. Counsel anticipates that the additional ten days (10)
will be sufficient time to prepare and to file the State’s Brief in Opposition in this case.
Thank you for your consideration of this request.
Sincerely yours,
Ashley Moody
Attorney General

Lisa-Marie Lerner
Assistant Attorney General
Copy sent to: Linda McDermott at linda_mcdermott@fd.org

